->

No.

Supreme Court of tfje Urnteti Stated
MIHRAN MELKONYAN,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent,

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
CERTIFICATE OF FILING
AND SERVICE
I, Mihran Melkonyan, being first duly sworn according to law, depose and say that the
required number of the following documents:
1.)

Petition for Writ of Certiorari to the United States Court of Appeals for the
Ninth Circuit;

2.)

Motion for Leave to Proceed in Forma Pauperis;

were this day filed with this Court and served on counsel for the United States on this same date,
by depositing the required number of originals and copies of the documents into the prison legal
mail collection box, in sealed envelopes, first class United States postage prepaid and addressed

RECEIVED
JUL 2 0 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

to: Supreme Court of the United States, Office of the Clerk, 1 First Street N.E.,
Washington, DC 20543, and United States Attorney, For The Eastern District of California,
501 -1 Street #10-100, Sacramento, CA 95814, (916-554-2770) (counsel for respondent) and
Solicitor General, Department of Justice, Washington, DC 20530 (Phone: 202-514-2217)
(counsel for respondent).
I further state that I am incarcerated in the federal prison at Mendota, CA 93640, and am
filing the documents pro se.
Signed under penalty of perjury
under 28 U.S.C. ยง 1746, this__
^ 2021.
day of
MIHRAN MELKONYAN
72465-097
P.O. Box 9
Mendota, CA 93640

